THORBURN LAW GROUP LLC
5460 South Quebec Street, Suite 310
Greenwood Village, Colorado 80111
Website www.thorburnlaw group.com

Telephone
(303) 646-3482
Facsimile
(303) 325-3489
E-Mail jthorburn@thorburnlawgroup.com

May 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Eric D. Speidell, et al. v. United States of America, S.Ct. No. 20-1332
Dear Mr. Harris:
Eric D. Speidell, et al, Petitioners, by and through their undersigned
counsel, hereby expressly waive the 14-day waiting period prescribed by
Supreme Court Rule 15(5) and respectfully request that the Clerk distribute
the petition and brief in opposition immediately and place the matter on the
next relevant conference list.
Petitioners do intend to file a Reply Brief and respectfully request that
the Clerk distribute the Reply Brief upon docketing. Thank you.
Dated: May 24, 2021
Respectfully submitted,
s/ James D. Thorburn
James D. Thorburn

cc: See attached service list

CERTIFICATE OF SERVICE
The undersigned does hereby certify that the foregoing letter has been
sent via first class mail, postage prepaid, or via email, as appropriate, on this
24th day of May, 2021 to the following:
ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001.
SupremeCtBriefs@USDOJ.gov
_____s/ James D. Thorburn_______
James D. Thorburn

